July 11, 2013

General Lloyd J. Austin III
Commander, U.S. Central Command
General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
 Commander, International Security Assistance Force


An issue potentially endangering the health of U.S. military and civilian personnel supporting
the mission in Afghanistan has come to my attention that I believe requires your immediate
action. Specifically, Camp Leatherneck in Helmand province is underutilizing its four solid waste
incinerators and, as a result, is continuing to use open-air burn pit operations to dispose of its
daily waste. We recently noted in an inspection report concerning waste incinerators at Forward
Operating Base Salerno that there are health concerns associated with breathing the smoke
emissions from open-air burning.1 The toxic smoke from burning solid waste each day increases
the long-term health risks for camp personnel, including reduced lung function and exacerbated
chronic illnesses, ranging from asthma to chronic obstructive pulmonary disease. I am also
concerned that, in its efforts to terminate open-air burn pit operations, the camp is pursuing a
$1.1 million contract, which may not be necessary, for hauling its solid waste to a local landfill.
Camp Leatherneck, currently consisting of about 13,500 U.S. military and civilian personnel,
spent $11.5 million to purchase and install two 12-ton and two 24-ton capacity incinerators. My
inspectors made several visits to the camp and found that the 12-ton incinerators were not
being used to full capacity and the 24-ton incinerators were not being used at all because a
contract for their operation and maintenance had not been awarded. As a result, the camp was
relying heavily on open-air burn pit operations to dispose of its solid waste. However,
Department of Defense guidance and a U.S. Central Command regulation limit the use of open-
air burn pit operations. Camp Leatherneck is in violation of this guidance and regulation.
Camp officials advised that they are planning to eventually use all four incinerators and are
looking into the feasibility of contracting to have any excess solid waste hauled to a local
landfill. In mid-June 2013, my office was notified that a contract was about to be awarded for
operating and maintaining the two 24-ton incinerators and that a contract for hauling trash off-
site should be in place by the end of July 2013. These are positive steps toward the cessation
of open-burn pit operations. However, if the base incinerators were used to their full capacity,
hauling trash off-site may not be necessary.
My office’s analysis shows that, given Camp Leatherneck’s 13,500 personnel, the solid waste
generated each day could be processed by operating all four incinerators at least 18 hours a
day. According to the manufacturer, these incinerators are built to operate 24 hours a day, 7
days a week. The analysis also shows that as Camp Leatherneck’s drawdown continues and
eventually reaches 12,000 personnel, it would be capable of processing all daily solid waste by



1SIGAR Inspection 13-08, Forward Operating Base Salerno: Inadequate Planning Resulted in $5 Million
Spent for Unused Incinerators and the Continued Use of Potentially Hazardous Open-Air Burn Pit
Operations (April 25, 2013).
operating only three incinerators—one 12-ton and two 24-ton—for 20 hours per day.
Consequently, making efficient and effective use of the incinerators would enable the camp to
terminate open-air burn pits operations and possibly eliminate the need for the trash hauling
contract.
Accordingly, you should consider terminating the use of Camp Leatherneck’s open-air burn pit
operations as quickly as possible by ensuring that the camp’s 12-ton incinerators are used to
their full capacity and by awarding an operation and maintenance contract for the 24-ton
incinerators. In addition, I suggest that you reevaluate the need for the $1.1 million contract for
hauling the camp’s solid waste to a local landfill in light of the incinerators’ capability to process
all the waste.
The results of my office’s preliminary inspection are contained in the enclosure to this letter.
Should you have any questions or need additional information, please contact Elizabeth Field,
Assistant Inspector General for Audits & Inspections, at (703) 545-6006 or
elizabeth.a.field9.civ@mail.mil, or Michael Welsh, Deputy Assistant Inspector General for Audits
& Inspections, Kabul, at (301) 490-1042 x7340 or welshLM@state.gov. Thank you in advance
for your attention to this matter.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction



Enclosure
cc:
Lieutenant General Mark A. Milley
Commander, International Security Assistance Force Joint Command, and
  Deputy Commander, U.S. Forces–Afghanistan

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers,
  U.S. Army Corps of Engineers

SIGAR Alert 13-4




SIGAR/Camp Leatherneck Incinerators
                  OBSERVATIONS ON SOLID WASTE DISPOSAL METHODS
                           IN USE AT CAMP LEATHERNECK

Camp Leatherneck was built in 2008, for the Marine Expeditionary Force in Helmand province, Afghanistan.
The camp, which at one point housed 21,000 U.S. military and civilian personnel, currently houses about
13,500 personnel. Camp Leatherneck currently uses a combination of incineration and open-air burn pit
operations to dispose of about 54 tons of solid waste produced each day.

                                                    Camp Leatherneck’s solid waste disposal facilities consist
Photo 1 - Two 12-Ton and Two 24-Ton                 of two 12-ton and two 24-ton capacity incinerators (see
Capacity Incinerators at Camp Leatherneck           photo 1), fuel tanks, generators, a covered sorting area,
                                                    concrete paved truck aprons, ash pits, control systems,
                                                    office buildings, and a chain link security fence. The camp’s
                                                    open-air burn pits are located in the same area as the
                                                    incinerators. DynCorp International operates and maintains
                                                    the two 12-ton capacity incinerators and the open-air burn
                                                    pits. At the time of our site visits, Camp Leatherneck
                                                    officials were still in the process of awarding the contract to
                                                    operate the 24-ton capacity incinerators and, as a result,
                                                    the camp continued to rely heavily on its open-air burn pit
                                                    operations.


                                                    Camp Leatherneck’s Waste Incinerators Are
                                                    Not Being Used to Full Capacity
Source: SIGAR, April 10, 2013.
                                                    SIGAR’s inspection team visited Camp Leatherneck on
three occasions—April 10, April 25, and May 7-9, 2013. During these visits, we found that the 12-ton
incinerators were not being used to full capacity and the 24-ton incinerators were not being used at all.
12-ton incinerators—During our April 10 site visit, both incinerators were operational. Contractor personnel
stated that both units operate 24 hours a day, 7 days a week and each unit processes one cubic meter of solid
waste every 15 minutes. However, during the hour that we observed operations, we did not see any solid waste
being loaded into either unit. Rather, we observed several truckloads of solid waste being delivered to the
open-air burn pits. During a 1-hour nighttime inspection on the same day, we observed one load of solid waste
being loaded into one of the incinerators. During our April 25 site visit, we observed both of the units being
used, but only two loads of solid waste were loaded, one in each incinerator, during our 1-hour site visit.
24-Ton Incinerators—During our April 10 site visit, the 24-ton capacity incinerators were not operational.
Contractor personnel operating the 12-ton capacity incinerators told us that efforts were underway to place
them into service within 2 weeks. However, at the time of our April 25 and May 7-9 site visits, these
incinerators were still not operational. During our May visit, contractor personnel said that the units would be
operational in about 3 weeks, but, as of July 2, 2013, they were still not operational. According to a camp
engineer, the units were not operational because the contract to operate and maintain them had still not been
awarded.




SIGAR/Camp Leatherneck Incinerators                                                                         Page 1
Camp Leatherneck’s four incinerators, if operated continuously, have a maximum processing capacity of 72-
tons of solid waste per day.2
We recently conducted a similar inspection at Forward Operating Base Salerno, where we found that the solid
waste incinerators were not being used and open-air burn pit operations were continuing.3 Based on
information that U.S. Army Central4 provided that we used to determine the capacity requirements for
incinerators used in a contingency environment, Camp Leatherneck’s 13,500 personnel would produce about
54 tons of solid waste each day.5 Table 1 shows our calculations of how much the four incinerators combined
could process at the 13,500 personnel level. The calculations also evaluate the incinerators’ processing
capacity using three scenarios: 24 hours, 20 hours, and 18 hours of operation per day.

                  Table 1 - Incinerator Processing Capacity
                                                                    Hours of
                   Camp Leatherneck           Daily Waste                               Daily Waste
                                                                  Operation per
                      Population              Generated                                  Processed
                                                                      Day

                  Average of 8 pounds generated/person/day
                  13,500                         54 tons                 24                72 tons

                  13,500                         54 tons                 20                60 tons

                  13,500                         54 tons                 18                54 tons

                  Source: SIGAR analysis based on information obtained from U.S. Army Central, Camp
                  Leatherneck, and the incinerators’ operation and maintenance manual.

Table 1 demonstrates that the incinerators are capable of fully processing the camp’s solid waste if operated
at least 18 hours per day. This allows ample time for repair, cleaning, and maintenance. As a result, Camp
Leatherneck’s proposal for spending $1.1 million to haul trash off-site may not be necessary. Our calculations
show that once the personnel level decreases to 12,000, the camp would be capable of processing all solid
waste using only three incinerators—one 12-ton and two 24-ton—and operating them 20 hours each per day.


Camp Leatherneck’s Continued Use of Open-Air Burn Pit Operations Violates
Department of Defense Guidance and a U.S. Central Command Regulation
Camp Leatherneck’s start-up operations in 2008 permitted it to use open-air burn pit operations to dispose of
its solid waste. However, their use continues 5 years later, violating Department of Defense guidance and a
U.S. Central Command regulation governing open-air burn pit operations at U.S. bases during contingency
operations (see photo 2).6 Department of Defense guidance (Department of Defense Directive Type


2   This does not factor in time for repair, maintenance, or cleaning.
3 SIGAR Inspection 13-8, Forward Operating Base Salerno: Inadequate Planning Resulted in $5 Million Spent for Unused

Incinerators and the Continued Use of Potentially Hazardous Open-Air Burn Pit Operations (April 25, 2013).
4U.S. Army Central (Third Army) is a subordinate element of U.S. Central Command. Its area of responsibility includes
Afghanistan.
5 U.S. Army Central provided data which shows that one person generates an average of 8 pounds of solid waste per day in

a contingency environment.
6 Use of Open-Air Burn Pits in Contingency Operations, Department of Defense Directive Type Memorandum 09-032,

March 30, 2010; superseded by Use of Open-Air Burn Pits in Contingency Operations, Department of Defense Instruction
4715.19, February 15, 2011. U.S. Central Command Regulation 200-2, CENTCOM Contingency Environmental Guidance,
dated January 3, 2011.

SIGAR/Camp Leatherneck Incinerators                                                                                 Page 2
Memorandum 09-032) specifically prohibits the disposal of waste in open-air burn pits during contingency
operations "except in circumstances in which no other alternative disposal method is feasible." Moreover, U.S.
Central Command Regulation 200-2 states that when a base houses more than 100 U.S. personnel for more
than 90 days, commanders must develop a plan to install waste disposal technologies, such as incinerators,
so that open-air burn pit operations can cease. The regulation also states that if commanders decide to use
incinerators, the equipment must be on site within 180 days of the decision and be operational 180 days after
arrival. The regulation further states that, regardless of the technology chosen, open-air burn pit operations
must cease 360 days after the 100 U.S. personnel threshold has been met. Further, a Department of the Army
memorandum dated April 15, 2011, noted that poor air quality from open-air burning at Bagram Air Field in
Afghanistan “…indicates there is a potential that long-term exposure…may increase the risk for developing
chronic health conditions such as reduced lung function or exacerbated chronic bronchitis, chronic obstructive
                                                        pulmonary disease (COPD), asthma, atherosclerosis, or
                                                        other cardiopulmonary disease.”7
Photo 2 - Open-Air Burn Pit Emissions at Camp
Leatherneck                                             Camp Leatherneck could terminate its use of open-air
                                                        burn pit operations through maximum use of its
                                                        incinerators, which it paid $11.5 million to purchase and
                                                        install. To date, this has not happened and, as a result,
                                                        possible long-term health risks to the camp’s personnel
                                                        continue. As noted above, the camp’s four incinerators are
                                                        capable of processing all solid waste generated each day.
                                                        In addition, by using the full capacity of the incinerators,
                                                        the $1.1 million contract for hauling solid waste off-site
                                                        may not be necessary.




Source: SIGAR, April 25, 2013.




7 Department of the Army, Combined Joint Interagency Task Force (CJIATF)-435, Air Quality Summary on Bagram Air Field,

April 15, 2011.

SIGAR/Camp Leatherneck Incinerators                                                                             Page 3
